HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare
Reimbursement by The Regence Group for Fiscal Years 1997 Through 2006,"
(A-07-08-00257)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed
for Medicare Reimbursement by The Regence Group for Fiscal Years 1997 Through
2006," (A-07-08-00257)
May 6, 2008
Complete Text of Report is available in PDF format (1.2 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The Regence Group (Regence), a Centers for Medicare and
Medicaid Services contractor, underclaimed $260,000 of Medicare pension costs on
its Oregon and Common Working File (CWF) Final Administrative Cost Proposals (FACP)
for fiscal years (FY) 19972006.  Regence also underclaimed $665,000 of Medicare
pension costs on its Utah FACPs for FYs 19982006.  Regence administered
both Medicare Part A and Part B operations under cost reimbursement contracts
with CMS until the contractual relationship was terminated November 30, 2005.
We recommended that Regence (1) revise its Oregon and CWF FACPs for FYs
19972006 to claim the additional allowable pension costs of $260,000 and (2)
revise its Utah FACPs for
FYs 19982006 to
claim the additional allowable pension costs of $665,000.  Regence concurred
with the audit results but stated that the . . . scope of this audit is limited
to the Medicare Part A and Part B cost reimbursement contracts that terminated
on November 30, 2005 and does not include the Oregon Medicare Data Center
contract which terminated on December 31, 2006.